Audit
Report
       ACCOUNTABILITY AND CONTROL OF MATERIEL
           AT THE TOBYHANNA ARMY DEPOT



Report No. D-2002-003                  October 4, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this report, visit the Inspector General, DoD, Home Page at
  www.dodig.osd.mil/audit/reports or contact the Secondary Reports Distribution Unit of the
  Audit Followup and Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and Technical
  Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas and
  requests can also be mailed to:
                        OAIG-AUD (ATTN: AFTS Audit Suggestions)
                          Inspector General, Department of Defense
                             400 Army Navy Drive (Room 801)
                                 Arlington, VA 22202-4704


  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098; by
  sending an electronic message to Hotline@dodig.osd.mil; or by writing to the Defense
  Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and
  caller is fully protected.




Acronyms
ASRS                  Automated Storage and Retrieval System
CECOM                 Communications-Electronics Command
IOC                   Industrial Operations Command
MSFS                  Maintenance Shop Floor System
PCN                   Program Control Number
                       Office of the Inspector General, DoD
  Report No. D-2002-003                                  October 4, 2001
    (Project No. D2000LH-0285)

                Accountability and Control of Materiel at the
                         Tobyhanna Army Depot

                                 Executive Summary

Introduction. This is one in a series of reports being issued by the Inspector General,
DoD, that discusses accountability and control of materiel at DoD maintenance depots.
The report discusses conditions identified in prior audits concerning the accountability
and control of materiel but remain uncorrected. The DoD FY 2001 budget for depot
maintenance was about $14.2 billion. The Army portion of that amount was about
$1.57 billion for operation of five maintenance depots. A significant portion of the
Army depot maintenance budget was for materiel used in repair and overhaul processes
at the depot maintenance facilities.

Depot maintenance facilities need effective inventory control systems to ensure that an
adequate supply of materiel, parts, and supplies are on hand to maintain efficient levels
of operation and to meet the demands of customers. An effective system is also
important to disclose defective and obsolete goods; prevent loss through damage,
pilferage, or waste; and ensure existence of physical quantities and values shown on
inventory records. Through inventory control, materiel not needed for requirements at
a depot can be made available to inventory managers for redistribution for other known
requirements.

Objectives. Our overall audit objective was to evaluate the effectiveness of policies
and procedures that were used to account for and control materiel used by the
Tobyhanna Army Depot located at Tobyhanna, Pennsylvania. We also evaluated the
management control program as it related to the overall objective.

Results. The Tobyhanna Army Depot maintained materiel that exceeded requirements.
Also, significant levels of inventory were not on accountable records. As a result,
Tobyhanna Army Depot could have $23.5 million of the $30 million of materiel that
was in excess of requirements. Further, 595 pallets of materiel transferred from the
Sacramento Air Logistics Center and 96 boxes of computer equipment were unpriced
and not included in the value of materiel onhand. Storage of large quantities of unused
materiel makes maintenance inventories difficult to manage. Materiel stored for long
periods of time may become lost, obsolete, stolen, or unserviceable, resulting in
increased maintenance costs to customers (finding A).

The Tobyhanna Army Depot did not effectively manage or control materiel stored in
the Automated Storage and Retrieval System. In addition, the
Communications-Electronics Command has neither issued policies or guidance
regarding management of maintenance materiel at the Tobyhanna Army Depot nor
required the Tobyhanna Army Depot to submit reports for management review. As a
result, inventory records at the Tobyhanna Army Depot had an estimated count error
rate at about 10.1 percent of the storage locations; materiel may become lost, obsolete,
stolen, or unserviceable; and proper management decisions over the use of materiel
have been hampered. Further, the lack of effective management controls at the
Tobyhanna Army Depot contributed to inventories that were stored for an excessive
period of time and lack of accurate inventory valuations (finding B). See Appendix A
for details on our review of the management control program as it relates to
management of materiel at the Tobyhanna Army Depot.

Summary of Recommendations. We recommend that the Army Deputy Chief of Staff
for Logistics reassess guidance that requires depots to limit requisitioning and storing of
fabrication maintenance materiel to a 60-day level and determine the appropriate
number of days. We also recommend that the Commander, Communications-
Electronics Command, issue guidance regarding management of the Automated Storage
and Retrieval System and direct the Commander, Tobyhanna Army Depot, to price
materiel and limit the storage of materiel under overhead accounts in the Automated
Storage and Retrieval System. Further, we recommend that the Commander,
Communications-Electronics Command, issue guidance regarding reports that should be
submitted for management review and direct the Tobyhanna Army Depot to perform a
reconciliation of the Automated Storage and Retrieval System records and the
Maintenance Shop Floor System records.

Management Comments. We provided a draft of this report on May 29, 2001.
Comments on the draft report were received too late to be considered in preparing this
final report. If the Army does not submit additional comments by December 3, 2001,
we will consider the comments received as the response to the final report.




                                            ii
Table of Contents

Executive Summary                                           i

Introduction
     Background                                             1
     Objectives                                             3

Findings
     A. Stockage of Materiel at the Tobyhanna Army Depot    4
     B. Accounting For and Controlling Materiel            12

Appendixes
     A. Audit Process
         Scope and Methodology                             17
         Management Control Program Review                 20
         Prior Coverage                                    20
     B. Report Distribution                                22
Background
    This is one in a series of reports being issued by the Inspector General, DoD,
    that discusses accountability and control of materiel at DoD maintenance depots.
    The DoD FY 2001 budget for depot maintenance is about $14.2 billion. The
    Army portion of that amount is about $1.57 billion for operation of five
    maintenance depots. A significant portion of the Army depot maintenance
    budget is for purchasing materiel used in repair and overhaul processes at depot
    maintenance facilities.

    Tobyhanna Army Depot. Tobyhanna Army Depot (Tobyhanna), located at
    Tobyhanna, Pennsylvania, is the largest full-service communications-electronics
    repair, overhaul, and fabrication maintenance facility in DoD. Tobyhanna’s
    mission includes design, manufacture, repair, and overhaul of hundreds of
    communications and electronics systems. Communications-electronics systems
    that are supported by Tobyhanna include communications, command and
    control, surveillance and target acquisition, airborne electronics, intelligence
    and electronic warfare, electronic support equipment, and power systems.

    Materiel Classification. Materiel used at maintenance depots is generally
    classified as consumables or reparables. Consumables are supplies consumed
    during use, such as repair parts and fabrication materiel. Once in use, those
    items lose a separate identity. Reparables are secondary items or subassemblies
    that can be restored to a serviceable condition through depot-level maintenance.
    Reparables are normally exchangeable on a one-for-one basis. For each
    reparable issued to maintenance for repair or overhaul, a serviceable reparable
    should be returned to the supply system.

    Accounting For and Controlling Materiel. Inventory control is defined as the
    control of materiel and goods in process by accounting and physical methods.
    Accounting control involves proper recording and reporting of inventories.
    Physical control involves a physical movement of inventories and consists of
    proper safeguards for receiving, storing, handling, and issuing. The purpose of
    a physical inventory is to determine the condition and quantity of items by
    physically inspecting and counting the items.

    Materiel Control. Materiel control is important because materiel not needed
    for the requirements at a depot can be made available for redistribution of other
    known requirements. Each maintenance facility is required to record
    on-hand materiel balances on shop stock records. Shop stocks are identified as
    demand-supported repair parts or consumable items stored within the
    maintenance activity that supports workloads. For accounting purposes, shop
    stocks are considered consumed; however, depots are required to maintain shop
    stock records to show on-hand inventory balances.

    Management Oversight. On October 1, 1995, the Army Industrial Operations
    Command (IOC) became fully established as a permanent Army Materiel
    Command major subordinate command and the office of primary responsibility
    for maintenance depots within the Army. On October 1, 1998, the IOC


                                        1
transferred full command and control of Tobyhanna to the
Communications-Electronics Command (CECOM), headquartered at
Monmouth, New Jersey.

The IOC issued a policy memorandum, “Management and Operations Policy for
Automated Storage and Retrieval System (ASRS) and Standard Depot System
(SDS) Maintenance at Industrial Operations Command Maintenance Depots,
Revision 3” (IOC ASRS policy memorandum), August 1, 1996. ASRS is a
mechanized storage system and is used for storing shop stocks.

The IOC ASRS policy memorandum includes the following inventory
management requirements:

      •   All materiel stored in ASRS, at a minimum, will be identified by the
          owning cost center; national stock number/part number; program
          control number (PCN); quantity; acquisition source code;
          nomenclature; and condition code.

      •   Items stored in mission stocks must represent a bona fide potential
          requirement for the performance of a maintenance or fabrication
          requirement.

      •   Availability of materiel from previously completed fabrication orders
          must be determined before placing new requisitions.

      •   Reclaimed materiel, materiel removed from assets in maintenance,
          and work in process may be stored until reutilized on the
          maintenance program. Excess reclaimed materiel will be turned in
          or transferred to a valid funded program.

      •   Prior to closing a depot maintenance program, all associated
          remaining repair parts, spares, and materiel on hand will be
          transferred to an ongoing program or a program that will begin
          within 180 days or turned in to the installation supply support activity
          within 15 days.

          - The gaining program must be funded, open, and valid.

          - The transferred materiel must be a bona fide potential requirement
            of the gaining program.


Personnel at the Army Materiel Command advised us that because the IOC
ASRS policy memorandum regarding management of ASRS was not canceled
when full command and control of Tobyhanna was transferred to CECOM in
October 1998, the policy memorandum remains in effect until CECOM issues
its own policy.




                                   2
Objectives
     The overall objective was to evaluate the effectiveness of policies and
     procedures that were used to account for and control materiel used by
     Tobyhanna. We also evaluated the management control program as it related to
     the objective. See Appendix A for a discussion of the audit scope and
     methodology, review of the management control program, and prior coverage
     related to the audit objectives.




                                       3
           A. Stockage of Materiel at the
              Tobyhanna Army Depot
           Tobyhanna maintained materiel that exceeded requirements. Also,
           significant levels of inventory were not on accountable records. The
           excess stockage levels occurred because Tobyhanna did not comply with
           the Army guidance regarding stockage levels of materiel, did not
           evaluate materiel to determine whether the materiel was required, and
           did not perform the required quarterly reviews of stockage levels of
           materiel. Also, the timing of purchased materiel and storage of materiel
           categorized as overhead PCNs contributed to excessive materiel on hand.
           Further, the lack of oversight and policy by CECOM contributed to
           excess materiel on hand. As a result, Tobyhanna could have as much as
           $23.5 million of materiel in excess of requirements. Storage of large
           quantities of unused materiel makes inventories difficult to manage.
           Materiel stored for long periods of time may become lost, obsolete,
           stolen, or unserviceable, resulting in increased maintenance costs to
           customers.


Depot Maintenance Materiel Guidance
    Army Regulation 750-2, “Army Materiel Maintenance Wholesale Operations,”
    October 27, 1989, states that procurement of repair parts necessary to support
    maintenance of programmed reparable assets will be based on approved depot
    maintenance requirements (section 5-8, page 18). The Regulation does not
    address stockage of expendable supplies and repair parts at maintenance depots.

    The Army issued interim guidance to Army Regulation 750-2 on November 28,
    1994, that requires depots to limit maintenance and requisitioning of fabrication
    materiel at 60-day levels. That guidance remains in effect.
    Army Regulation 710-2, “Inventory Management Supply Below the Wholesale
    Level,” October 31, 1997, states that support maintenance facilities are
    authorized a limited amount of expendable supplies and repair parts required for
    efficient operations. Each shop stock item must be reviewed, at a minimum,
    quarterly.

    The IOC ASRS policy memorandum states the following:

           •   The purpose of ASRS is for short-term storage of maintenance
               materiel, which includes work in process.

           •   Items are not to be stored for long periods in ASRS without known
               requirements.




                                        4
       •   Projects will be reviewed at the 50-percent, 75-percent, and
           90-percent completion stages to determine if a need exists for
           materiel still in storage.

       •   Materiel will not be stored in ASRS in an overhead account.

       •   Depots using the Standard Depot System maintenance will review all
           materiel that has a date of last activity more than 6 months old and
           verify on a monthly basis the PCN, national stock number, and
           condition codes.

Program Control Number. Tobyhanna assigns each job a PCN for scheduling
work and tracking costs. The PCN exists for the life of the job. Materiel is
ordered for a specific PCN and continues to be identified with that PCN until
consumed, transferred to another PCN, or disposed. Once the PCN is closed,
the associated remaining repair parts, spares, and materiel on hand should be
transferred to an ongoing program or a program that will begin within 180 days
or turned in to the installation supply support activity within 15 days.

Automatic Storage and Retrieval System. ASRS is a mechanized storage
system within maintenance directorates and is used for storing maintenance shop
stock and end-item subassemblies used for maintenance and fabrication
programs. Tobyhanna uses the ASRS to store and account for depot
maintenance materiel. ASRS maintains on-hand inventory balances and
locations of the inventory. Materiel stored in ASRS is considered consumed for
accountability purposes and identified to specific projects. At Tobyhanna,
materiel is stored by PCN and stock number and is issued only at the request of
maintenance shops. In compliance with the IOC ASRS policy memorandum,
materiel stored in ASRS should be stored for short periods. As the materiel is
used it should be dropped from the ASRS records.

Maintenance Shop Floor System. Materiel issued to maintenance activities
from the supply support activity is also controlled by the Maintenance Shop
Floor System (MSFS), which is an on-line computer system that tracks
maintenance activities for shop personnel. The MSFS interfaces offline with the
ASRS through nightly batch processing. The MSFS records issue and receipt of
materiel, and shows on-hand balances by stock number of materiel stored in
ASRS. The MSFS also shows the dollar value of the materiel stored in ASRS.
The on-hand quantities of materiel stored in the ASRS should agree with the
balances in the MSFS. The MSFS does not interact with the depot supply
support activity systems and stock accounts because the MSFS is not linked to
depot supply and accounting records. Therefore, quantities that are on hand are
not reported in the depot financial statements.




                                    5
Stockage Levels of Materiel
     Tobyhanna maintained maintenance materiel that exceeded requirements. Also,
     significant levels of inventory were not on accountable records. Tobyhanna
     could have as much as $23.5 million of materiel stored in ASRS even though
     requirements for the materiel at Tobyhanna may not exist.

     Inventory Value. On January 12, 2001, the ASRS inventory totaled
     16,586 lines of materiel, reported to be valued at about $30 million. However,
     the about $30 million value of the materiel is understated because a significant
     amount of materiel stored in ASRS had no extended dollar value. For example,
     materiel was stored in ASRS under 244 PCNs. Of the 244 PCNs, we identified
     172, for which an extended dollar value was maintained. The about $30 million
     value of materiel was reported from those 172 PCNs. However, 72 PCNs were
     recorded in ASRS without extended dollar amounts. We were unable to
     determine the value of materiel in the remaining 72 PCNs.

     Overhead PCNs. Of the 72 PCNs without extended dollar amounts, 13 were
     unpriced overhead PCNs. Storage of materiel in overhead PCNs helped
     contribute to the accumulation of excessive materiel on hand. The IOC ASRS
     policy memorandum states that materiel should not be stored in ASRS in
     overhead PCNs. The number of overhead PCNs should be limited, and the
     materiel stored in overhead PCNs should be limited to low dollar value items or
     materiel that can be used on many programs.

     Communications-Electronics Equipment. Under the Defense Base
     Realignment and Closure of 1995, the common-use ground-communications
     electronics maintenance mission was transferred from the Sacramento Air
     Logistics Center in Sacramento, California, to Tobyhanna. That transfer
     included the workload, required equipment, and maintenance materiel related to
     cryptographic/communications security, electro-optics and night vision,
     electronics warfare, navigational aids, radar, radio communications, satellite
     control/space sensors, and wire communications.

     The equipment and maintenance materiel were shipped from the Sacramento Air
     Logistics Center to Tobyhanna between FY 1998 and FY 2000 and are
     represented by 595 pallets of materiel stored in ASRS. The 595 pallets of
     materiel are stored in ASRS under a number of the 13 unpriced overhead PCNs,
     which is not in compliance with the IOC ASRS policy memorandum. Because
     the pallets have not been inventoried, the content of the pallets and condition or
     value of the materiel stored on the pallets was unknown.

     Computer Equipment. The ASRS at Tobyhanna also contained 96 boxes of
     computer equipment not recorded on the ASRS inventory records. The
     computer equipment had been stored in ASRS for more than 2 years. The
     computer equipment was identified as components of the Tactical Army Combat
     Computer System. The 96 boxes of computer equipment are valued at about
     $586,000. The value of the computer equipment was obtained from the Federal
     Logistics Information Record. As of January 12, 2001, the equipment had not

                                         6
    been inventoried; therefore, the condition of the computer equipment is
    unknown. We were advised by Tobyhanna personnel that no requirement for
    the computer equipment existed at the depot. However, the computer
    equipment should be inventoried and turned in to the supply system.

    Long-Term Storage. Materiel was stored in ASRS at Tobyhanna for long
    periods of time, even though the IOC ASRS policy memorandum states that the
    purpose of ASRS is for short-term storage and that materiel is not to be stored
    for long periods of time in ASRS without a bona fide requirement. Also, prior
    to closing a depot maintenance program, all of the associated remaining repair
    parts, spares, and materiel on hand shall be transferred to an ongoing program
    that will begin within 180 days or shall be turned in to the installation supply
    support activity within 15 days. The ASRS data show when materiel was stored
    in the system and the dates of the last transaction. When Tobyhanna personnel
    aged the materiel stored in ASRS, data showed that at least $23.5 million
    (72 percent) of the about $30 million of materiel had been stored in ASRS in
    excess of 180 days. We believe that the $23.5 million of materiel could be
    excess to known requirements because some materiel had been stored in ASRS
    for as long as 13 years. Also, Tobyhanna personnel had not performed a review
    of materiel with a date of last activity more than 6 months old. Further, because
    the about $30 million value of the inventory is understated, we also believe that
    the $23.5 million in potential excess inventory may be understated.

    Repeat Condition. The excessive accumulation of materiel was also reported
    by the Army Audit Agency. Army Audit Agency Report No. NR 89-6, “Depot
    Automated Storage and Retrieval System,” March 24, 1989, states that materiel
    stored in ASRS was not adequately accounted for. The Army Audit Agency
    estimated the Army-wide amount of unaccounted for materiel to be as high as
    $120 million.

    Army Audit Agency Report No. AA 97-161, “Management of Repair Parts for
    Maintenance,” March 17, 1997, states that the processes used to obtain, store,
    and issue parts for maintenance and fabrication programs did not provide the
    most cost-effective support to maintenance operations. The report also states
    that Tobyhanna had about $36 million of materiel stored in ASRS, of which
    some of the materiel had been stored for more than 7 years.

Managing Depot Maintenance Materiel
    Excessive materiel stockage levels accumulated at Tobyhanna because personnel
    did not comply with Army guidance regarding stockage levels of materiel, did
    not evaluate materiel to determine if the materiel was required, and did not
    perform the required quarterly reviews of stockage levels of materiel. Also, the
    timing of purchased materiel and storage of materiel in overhead PCNs
    contributed to excessive materiel on hand. Further, the lack of CECOM
    oversight and policy guidance contributed to the excessive materiel on hand.

    Army Guidance. As a result of mediation regarding a recommendation in
    Inspector General, DoD, Report No. 94-117, “Accountability and Control of
    Materiel at Army Depots,” June 3, 1994, the Army issued interim guidance to

                                        7
Army Regulation 750-2 that requires depots to limit maintenance and
requisitioning of fabrication materiel to a 60-day level. The Army agreed that
exceptions for exceeding a 60-day level must be approved by the head of the
repair facility on a case-by-case basis, and that the Army would maintain a list
of those exceptions. The guidance was issued in a message on November 28,
1994. We found no written exception to the 60-day allowable limit for storing
materiel in ASRS. When we inquired about the interim guidance at Tobyhanna,
we were advised that Tobyhanna personnel were not aware of any interim
guidance.

Although the Army issued interim guidance to Army Regulation 750-2 in
November 1994, the regulation has not been revised. Confusion at Tobyhanna
exists regarding whether Army Regulation 750-2 is applicable for managing
depot maintenance materiel, especially for storage of fabrication materiel.
Personnel at Tobyhanna believed that because much of the work is on
fabrication programs, a 180-day limit for storing materiel would be more
appropriate. Army Regulation 750-2 applies to a wholesale activity, but
Tobyhanna personnel believe that the depot is a retail activity. We were advised
by the Army Materiel Command that Tobyhanna is a wholesale activity and that
Army Regulation 750-2 is applicable to Tobyhanna. However, to resolve the
issue of a 60-day requirement versus a 180-day requirement, the Army should
reassess the requirement and determine the number of days that should be
appropriate for storing fabrication materiel.

Quarterly Reviews. Tobyhanna personnel were not performing quarterly
reviews on materiel stored in the ASRS as required by Army Regulation 710-2.
Army Regulation 710-2 requires that shop stock items be reviewed quarterly, at
a minimum, to determine if requirements still exist. Failure to perform
quarterly reviews resulted in an accumulation of the excessive materiel that was
on hand. Tobyhanna personnel advised us that quarterly reviews were not
performed because of a shortage of personnel.

Purchasing Materiel. Tobyhanna purchased required materiel at the beginning
of projects and stored that materiel for the life of the project, even though some
of the materiel may be used over a multiple-year period. Records were not
available to show that Tobyhanna personnel reviewed projects at the 50-percent,
75-percent, and 90-percent completion stages to determine if a need existed for
materiel in storage. Also, records were not available to show the availability of
materiel from previously completed fabrication projects before placing new
requisitions. Further, records were not available to show how Tobyhanna
accounted for materiel that was reclaimed from repaired components or
removed from assets in maintenance. Purchasing the materiel more in line with
consumption would reduce the excess inventories, especially because program
requirements can change.

Communications-Electronics Command Oversight and Policy. The lack of
oversight regarding the management of maintenance materiel by CECOM also
contributed to the problem. CECOM has not issued any policy for management
of materiel or required that reports be prepared for management review.




                                    8
Monetary Benefits
    Tobyhanna maintained materiel valued at $23.5 million for an excessive period
    of time. No activity was recorded for that materiel. Therefore, Tobyhanna
    could have $23.5 million of potential monetary benefits. The exact amount
    cannot be determined until Tobyhanna identifies inventory excess to prevailing
    requirements and determines if the excess materiel can be used to satisfy other
    known requirements.


Conclusion
    Tobyhanna did not comply with Army guidance relating to the level of the
    stockage of maintenance materiel stored in ASRS and did not effectively manage
    the materiel. As a result, the depot has an undetermined amount of materiel that
    has been stored for an excessive period of time, some held as long as 13 years,
    which exceeds requirements. Storage of large quantities of unused materiel
    makes maintenance inventories difficult to manage. Materiel stored for long
    periods of time may become lost, obsolete, stolen, or unserviceable. The
    materiel should be evaluated to determine if a need exists, and materiel with no
    known requirement should be made visible to item managers for known
    requirements, with excess materiel turned in. Because the materiel stored in
    ASRS is considered as consumed, the materiel loses visibility and is not
    available to the supply system item managers to meet other requirements.

    A lack of accountability and control of materiel at maintenance depots is an
    ongoing problem at Tobyhanna. The condition was first reported in 1989 by the
    Army Audit Agency. The Inspector General, DoD, reported a similar condition
    in 1994. Our audit showed that the problem continues to exist. The Army
    should establish updated guidance for the accountability and control of materiel
    at maintenance depots, and CECOM should take a more active role in
    monitoring management of materiel at Tobyhanna and issue guidance on
    materiel management.


Recommendations
    A.1. We recommend that the Army Deputy Chief of Staff for Logistics reassess
    guidance regarding the 60-day storage and requisitioning of fabrication materiel
    at maintenance depots and revise Army Regulation 750-2. The guidance should
    state the following:

           •   The appropriate number of days depots should be allowed for storing
               and requisitioning fabrication materiel.

           •   Quarterly reviews should be performed to determine if materiel is
               still required.


                                        9
A.2. We recommend that the Commander, Communications-Electronics
Command, issue guidance regarding management of the Automated Storage and
Retrieval System at Tobyhanna. The guidance should include the following:

      •   All materiel stored in the Automated Storage and Retrieval System
          shall be, at a minimum, identified by owning cost center; national
          stock number/part number; program control number; quantity;
          acquisition source code; nomenclature; and condition code.

      •   A review of any materiel with a date of last activity more than
          6 months shall be performed.

      •   An annual physical inventory of any materiel stored in the Automated
          Storage and Retrieval System shall be performed.

      •   Items stored in mission stocks must represent a bona fide potential
          requirement for performance of a maintenance or fabrication
          requirement.

      •   Availability of materiel from previously completed fabrication orders
          must be determined before placing new requisitions.

      •   Projects shall be reviewed at the 50-percent, 75-percent, and
          90-percent completion stages to determine if a need exists for
          materiel still in storage.

      •   Reclaimed materiel, materiel removed from assets in maintenance,
          and work in process may be stored until reutilized on the
          maintenance program. Excess reclaimed materiel shall be turned in
          or transferred to a valid funded program.

      •   Materiel shall not be stored in Automated Storage and Retrieval
          System in an overhead account.
      •   Quarterly reviews shall be performed on materiel stored in the
          Automated Storage and Retrieval System to determine if
          requirements still exist.

      •   Prior to closing a depot maintenance program, any associated
          remaining repair parts, spares, and materiel on hand shall be
          transferred to an ongoing program or a program that will begin
          within 180 days or turned in to the installation supply support activity
          within 15 days.

          - The gaining program must be funded, open, and valid.

          - The transferred materiel must be a bona fide potential requirement
            of the gaining program.

A.3. We recommend that the Commander, Communications-Electronics
Command, direct Tobyhanna to immediately:


                                   10
            a. Price the materiel stored in the Automated Storage and Retrieval
    System that has no extended dollar value or that has been added to the physical
    inventory, identify the value of inventory excess to prevailing requirements, and
    notify the Inspector General, DoD, of the corrected dollar value of the inventory
    and value of inventory excess to the requirements.

           b. Limit the storage of materiel in the Automated Storage and Retrieval
    System under overhead accounts. Specifically, remove materiel obtained from
    the Sacramento Air Logistic Center from the overhead account program control
    numbers.

           c. Record the Tactical Army Combat Computer System equipment on
    accountable records and inventory and turn in the computer equipment to the
    supply system because no requirement for the equipment exists at Tobyhanna.


Management Comments Required
    Comments on the draft report were received too late to be considered in
    preparing this final report. If the Army does not submit additional comments,
    we will consider the comments received as the response to the final report.




                                       11
           B. Accounting For and Controlling
              Materiel
           Tobyhanna did not effectively manage or control materiel stored in the
           ASRS, which occurred because Tobyhanna did not perform annual
           physical inventories and reconciliation for quantities and values of
           materiel stored in the ASRS with MSFS records. In addition, CECOM
           has neither issued any policies or guidance regarding management of
           maintenance materiel at Tobyhanna nor required Tobyhanna to submit
           reports for management review. That condition occurred because
           CECOM has not exercised its duties as the office of primary
           responsibility for Tobyhanna. As a result, inventory records at
           Tobyhanna had an estimated count error rate at about 10.1 percent of the
           storage locations; materiel may become lost, obsolete, stolen, or
           unserviceable; and proper management decisions over the utilization of
           materiel have been hampered. Further, the lack of effective management
           controls at Tobyhanna contributed to excessive inventories and the lack
           of accurate inventory valuations as noted in Finding A.


Safeguarding Maintenance Materiel
    DoD Regulation 4140.1-R, “DoD Materiel Management Regulation,” May 20,
    1998, provides policies for DoD Components regarding management of
    materiel. The regulation states that the DoD Component that has physical
    custody of materiel is responsible to care and safeguard the materiel and shall
    maintain quantitative balance records by individual storage location. Also, the
    DoD Components shall conduct annual physical inventories and shall take
    appropriate actions to ensure that the on-hand quantity and total item property
    record agree.
    Army Regulation 735-5, “Policies and Procedures for Property Accountability,”
    January 31, 1998, states that any property acquired by the Army from whatever
    source, whether paid for or not, must be accounted for on formal records from
    the time of acquisition until the ultimate consumption or disposal of the property
    occurs. Also, the Army Regulation requires that all on-hand property shall be
    inventoried annually.

    The IOC ASRS policy memorandum includes the following inventory
    management requirements:

           •   An annual physical inventory of all materiel stored in ASRS.

           •   A reconciliation between the ASRS and MSFS files, at a minimum
               monthly, to determine if files are accurate.




                                        12
    Similarly, the IOC ASRS policy memorandum includes the following
    management reporting requirements:

           •   A monthly total dollar roll-up for materiel stored in ASRS.

           •   Items stored in ASRS with no demand in the last 180 days.

           •   Materiel stored in ASRS against closed PCNs.

           •   Materiel stored against overhead PCNs.

           •   Potential excess materiel by PCN.


Accounting and Controlling
    Tobyhanna did not effectively manage or control maintenance materiel stored in
    the ASRS. That condition occurred because Tobyhanna did not perform annual
    physical inventories in compliance with DoD and Army regulations. Also,
    Tobyhanna did not perform reconciliation of quantities and values of materiel
    stored in the ASRS with MSFS records.

    Accuracy of Inventory. The inventory records for accountability and control
    of materiel stored in ASRS at Tobyhanna were inaccurate. For our physical
    inventory, we statistically selected 923 locations from a universe of
    23,195 locations to determine if quantities that were on hand matched those
    quantities identified in the ASRS records. We compared the balance shown on
    the ASRS record with a physical count of items stored in ASRS.

    The inventory records and our physical count showed an estimated error rate of
    about 10.1 percent of the storage locations. By applying appropriate statistical
    weighting to the sample, we calculated that the number of errors in the universe
    of locations to be about 2,341 (10.1 percent). An estimated 3.6 percent of the
    storage locations was overstated (ASRS records showed more than the physical
    count) and an estimated 6.5 percent of storage locations was understated (ASRS
    records showed less than the physical count).

    Performing Physical Inventories. Tobyhanna was not correcting the errors in
    ASRS records regarding quantities and values of on-hand inventories because
    annual physical inventories of materiel stored in ASRS were not performed.
    DoD Regulation 4140.1-R, Army Regulation 735-5, and the IOC ASRS policy
    memorandum require that annual physical inventories be performed.
    DoD Regulation 4140.1-R states that appropriate actions shall be taken to ensure
    that the on-hand quantity and total item property records agree.

    Annual physical inventories of materiel stored in ASRS were not being
    performed. According to Tobyhanna management officials, the annual physical
    inventories were not performed because the depot did not have sufficient
    personnel to perform them. We were advised that the last annual physical
    inventory was performed in 1998, but the results of the inventory were not

                                       13
    documented. Although resources may not be available to perform annual
    wall-to-wall inventories, physical inventories are still required to be performed
    to care and safeguard materiel. Alternatives that could be used are an annual
    random statistical sample of inventory or some type of cyclic inventory.
    Reducing the size of the inventory, as cited in Finding A, would greatly reduce
    the effort involved in performing required inventories.

    Reconciling the ASRS and the MSFS. Tobyhanna was not reconciling the
    ASRS records with MSFS records. The IOC ASRS policy memorandum states
    that to enhance the control of materiel stored in ASRS, a reconciliation between
    the ASRS and MSFS files is required.

    We were advised that the reconciliations were not being performed because of
    resource requirements. Reconciliations required too much computer time and
    ASRS would not be available for normal mission functions during the
    reconciliations. Nevertheless, reconciliation between the two files should be
    performed at a minimum of once each month. If a variance between the two
    files is found, an inventory should be performed to correct the imbalance.
    Tobyhanna should consider performing the reconciliations after normal business
    hours.

    Reporting Requirements. Tobyhanna was not reporting the results of
    reconciliation reviews to higher level management because such reviews were
    not performed. The IOC ASRS policy memorandum requires that depots submit
    quarterly reports concerning the management of the ASRS inventories. We
    were advised that quarterly reports were not being prepared because of resource
    constraints. Nevertheless, quarterly reports were required so that the office of
    primary responsibility could monitor inventory levels and ensure accountability
    and control of materiel.


Management Oversight of Materiel
    CECOM has neither issued any policies or guidance regarding management of
    maintenance material at Tobyhanna nor required Tobyhanna to submit reports
    for management review. That condition occurred because CECOM has not
    exercised its duties as the office of primary responsibility for Tobyhanna.

    DoD and Army Regulations. DoD and Army Regulations collectively require
    that depots maintain quantitative balance records, account for materiel on formal
    records from the time of acquisition until the ultimate consumption or disposal
    of the property occurs, conduct annual physical inventories, and take
    appropriate actions to ensure that the on-hand quantity and total item property
    records agree. Those requirements were issued to ensure the care and
    safeguarding of materiel.

    Industrial Operations Command Policy. The IOC ASRS policy memorandum
    requires depots to perform a reconciliation between ASRS and MSFS files and
    annual physical inventories of materiel stored in ASRS. In addition, to ensure


                                        14
    adequate oversight regarding the management of ASRS, the IOC ASRS policy
    memorandum requires that the following reports be provided for management
    review:

           •   A monthly total dollar roll-up for materiel stored in ASRS.

           •   Items stored in ASRS with no demand in the last 180 days.

           •   Materiel stored in ASRS against closed PCNs.

           •   Materiel stored against overhead PCNs.

           •   Potential excess materiel by PCN.

    Communications-Electronics Command. On October 1, 1998, the IOC
    transferred full command and control of Tobyhanna to CECOM. However,
    since October 1998, CECOM has not issued any policies or guidance
    concerning implementation of DoD, Army, and IOC policies noted above or for
    the overall management of materiel at Tobyhanna. Further, CECOM has not
    been actively involved in management of the maintenance materiel at Tobyhanna
    nor has CECOM required Tobyhanna to submit reports concerning management
    of maintenance materiel for CECOM review. We do not believe that CECOM
    has exercised its duties as the office of primary responsibility for Tobyhanna.


Conclusion
    Tobyhanna did not effectively manage or control maintenance materiel stored in
    the ASRS and CECOM has not issued any policies or guidance regarding the
    management of maintenance materiel at Tobyhanna or required Tobyhanna to
    submit reports for management review. We believe that effective management
    of maintenance materiel requires, at a minimum, Tobyhanna to perform physical
    inventories, reconcile ASRS and MSFS records, and prepare quarterly reviews
    of inventory levels. Further, we believe that CECOM should take an active role
    in monitoring the management of materiel at Tobyhanna. CECOM should also
    issue policy and guidance concerning management steps noted above and any
    additional policy and guidance deemed necessary for the effective management
    of materiel at Tobyhanna.

    Because those management actions were not performed, inventory records at
    Tobyhanna had an estimated error rate either overstated or understated of about
    10.1 percent in the storage locations. Additionally, materiel may become lost,
    obsolete, stolen, or unserviceable; and proper management decisions over the
    utilization of material have been hampered. Further, the lack of effective
    management controls at Tobyhanna contributed to excessive inventories and the
    lack of accurate inventory valuations as noted in Finding A.




                                       15
Recommendations
    B.1. We recommend that the Commander, Communications-Electronics
    Command, issue guidance regarding reports that should be submitted to
    management for review. The guidance should require the following reports:

           •   An annual physical inventory of all materiel stored in Automated
               Storage and Retrieval System.

           •   A reconciliation between the Automated Storage and Retrieval
               System and Maintenance Shop Floor System files, at a minimum
               monthly, to determine if files are accurate.

           •   A physical inventory should be performed to correct any
               deficiencies. Reports should be prepared for management review.

           •   A monthly total dollar value for materiel stored in the Automated
               Storage and Retrieval System.

           •   Items stored in the Automated Storage and Retrieval System with no
               demand in the last 180 days.

           •   Materiel stored in the Automated Storage and Retrieval System
               against closed program control numbers.

           •   Materiel stored against overhead program control numbers.

           •   Potential excess materiel by program control number.

    B.2. We recommend that the Commander, Communications-Electronics
    Command, direct the Tobyhanna Army Depot to immediately perform a
    physical inventory and reconcile the Automated Storage and Retrieval System
    records with the Maintenance Shop Floor System records to verify the accuracy
    of inventory records and submit report for review.


Management Comments Required
    Comments on the draft report were received too late to be considered in
    preparing this final report. If the Army does not submit additional comments,
    we will consider the comments received as the response to the final report.




                                       16
Appendix A. Audit Process

Scope and Methodology
    We performed the audit at the Tobyhanna Army Depot. We contacted the
    Army Materiel Command, the CECOM, and the Defense Logistics Agency.
    We concentrated on accountability and control of repair parts and consumable
    materiel. Our audit covered inventory records as of January 12, 2001. At the
    time of our audit, Tobyhanna reported a total inventory balance in the ASRS of
    about $30 million.

    We reviewed the DoD and Army regulations concerning policies,
    responsibilities, and procedures for managing repair parts and consumable
    materiel at the depot maintenance facility. To determine if repair parts and
    consumable materiel were accurately accounted for and controlled on depot
    property records, we inventoried a random sample of materiel on hand at the
    maintenance depot. We used the most current records available for performing
    the inventory. We statistically selected 923 of 23,195 sample locations for
    review. We determined unit prices by using the Defense Logistics Agency
    consolidated materiel data list, which provides data such as the item name,
    national stock number, and the unit price; Federal Logistics Information
    Record; and supply records.

    We reviewed FY 1998, FY 1999, and FY 2000 management control
    certifications, required by the Federal Managers’ Financial Integrity Act of
    1982, that were submitted by the depot. We reviewed the certifications to
    determine whether responsible managers were identifying and reporting material
    weaknesses concerning accounting for and controlling maintenance materiel in
    the annual management control certifications. We also followed up on
    implementation of recommendations from prior audit reports.

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

    Logistics Functional Area. Objective: Minimize logistics costs while meeting
    warfighters requirements. Goal: Reduce the logistics cost per selected weapon
    system per year compared to FY 1997 baseline as follows: 7 percent by
    FY 2000; 10 percent by FY 2001; and a stretch target of 20 percent by
    FY 2005. (LOG-6.1)




                                      17
High-Risk Area. The General Accounting Office has identified several
high-risk areas in DoD. This report provides coverage of the Defense Inventory
Management high-risk area.

Use of Computer-Processed Data. We relied on computer-processed data
from the ASRS and the MSFS for determining the accuracy of inventory
records. Our review of system controls and the results of data tests showed an
error rate that casts doubt on the data’s validity. Further, we believe that the
monetary valuation of materiel was understated because a significant amount of
materiel stored in ASRS had no extended dollar value. However, when the data
are reviewed in context with other available evidence, we believe that the
opinion, conclusions, and recommendations in this report are valid.

Sample Design. The ASRS has four general types of storage. We used a
stratified random sample design, selecting simple random samples of locations
reported as of January 12, 2001, within each type of storage, as listed below:


                       Population and Sampling

        Type         Locations in    Locations in       Retrieval
       Storage         System          Sample            Mode

      Unit Load         4,560            180           Automated
      Mini-load        13,224            398           Automated
      Cantilever        5,200            300        Warehouse worker
      Floor – R           186             20        Warehouse worker
     Floor – E/W           25             25        Warehouse worker

        Total          23,195            923

  Floor–R - Floor Rack
  Floor–E/W - Floor East/West




                                    18
Sample Results. The following table reports projections that are based on our
sample data. The No Materiel locations are those that ASRS reported as empty
and our audit verified as empty. When ASRS reported a location as empty, but
we found materiel stored there, we treated that location as “understated.” The
sample results are as follows:

                               Projections

                                       Point            Lower      Upper
            Projection                Estimate          Bound      Bound

 Overstated (Audit < System)         832 (3.6%)            543     1,121
 Understated (Audit > System)      1,509 (6.5%)          1,133     1,884
 Accurate Count                    4,464 (19.2%)         3,872     5,055
 No Materiel at Location          16,391 (70.7%)        15,714    17,067

    Total                          23,195 (100%)          n/a*       n/a*

*Not applicable.
Note: Numbers do not sum evenly because of rounding.


The table reports the 95 percent confidence intervals. For example, the
interpretation of the results for locations with overstated counts is that, with
95 percent confidence, we estimate that between 543 and 1,121 locations of the
total 23,195 locations would have overstatements. Our best single measure,
832 locations, is the midpoint of that range.

Use of Technical Assistance. Statisticians from the Analysis, Planning, and
Technical Support Directorate, Quantitative Methods Division, Office of the
Assistant Inspector General for Auditing, provided assistance in designing a
random statistical sampling plan for performing a physical inventory and in
evaluating results of the physical inventory.

Audit Type, Dates, and Standards. We performed this economy and
efficiency audit from September 2000 through May 2001 in accordance with
generally accepted government auditing standards, except we were unable to
obtain an opinion on our audit system of quality control. The most recent
external control review was withdrawn on March 15, 2001, and we will undergo
a new review.

Contacts During the Audit. We visited or contacted individuals and
organizations within DoD. Further details are available on request.




                                   19
Management Control Program Review
     DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
     1996, and DoD Instruction 5010.40, “Management Control (MC) Program
     Procedures,” August 28, 1996, require DoD organizations to implement a
     comprehensive system of management controls that provides reasonable
     assurance that programs are operating as intended and to evaluate the adequacy
     of the controls.

     Scope of the Review of the Management Control Program. At Tobyhanna,
     we reviewed the adequacy of management controls regarding storage and
     disposition of maintenance materiel at the depot. We also reviewed
     management’s self-evaluation applicable to those management controls.

     Adequacy of Management Controls. We identified material management
     control weaknesses for Tobyhanna as defined by DoD Instruction 5010.40.
     Tobyhanna management controls for managing depot maintenance materiel were
     not adequate because managers stored for long periods materiel not needed for
     current requirements. Also, annual physical inventories were not performed as
     required. Additionally, quarterly reviews to determine if materiel was needed
     were not performed, especially for materiel stored for long periods of time.
     Recommendations A.1., A.2., A.3., B.1., and B.2., if implemented, will
     improve management of materiel. A copy of the report will be provided to
     senior officials responsible for management controls within the Army.

     Adequacy of Management’s Self-Evaluation. Tobyhanna officials did not
     identify management of maintenance materiel as an assessable unit and,
     therefore, did not identify or report the material management control
     weaknesses identified by this audit. However, if management takes action on
     the recommendations in this report, noted deficiencies will be corrected.


Prior Coverage
     During the last 5 years, the Inspector General, DoD has issued one report
     discussing management of repair parts for maintenance. The Army Audit
     Agency has also issued one report discussing management of repair parts for
     maintenance. In addition, we discussed one Army Audit Agency report that was
     more than 5 years old and that report discusses the use of the ASRS.

Inspector General
     Inspector General, DoD, Audit Report No. D-2001-186, “Accountability and
     Control of Materiel at the Tobyhanna Army Depot – Stockage of
     Communications-Electronics Materiel,” September 21, 2001




                                        20
Army
       Army Audit Agency, Audit Report No. AA 97-161, “Management of Repair
       Parts for Maintenance,” March 17, 1997

       Army Audit Agency, Audit Report No. NE 89-6, “Depot Automated Storage
       and Retrieval System,” March 24, 1989




                                      21
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
     Assistant Deputy Under Secretary of Defense (Maintenance Policy, Programs,
        and Resources)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Under Secretary of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Assistant Secretary of the Army (Financial Management and Comptroller)
Deputy Chief of Staff (Logistics)
Director, Army Materiel Command
Commander, Communications-Electronics Command
  Commander, Tobyhanna Army Depot
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget


                                          22
General Accounting Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
 Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
 Government Reform




                                         23
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

  Shelton R. Young
  Raymond D. Kidd
  Robert M. Murrell
  Joseph M. Austin
  Sheela M. Javeri
  Douglas P. Ickes
  William E. Shimp
  Charlisa D. Trahan
  Lieutenant Commander Patrick E. Protacio, U.S. Navy
  Henry D. Barton
  Dharam V. Jain
